November 17, 2020
Hon. Scott. S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington DC 20543
Re:

Dennis Lemma, Sheriff, Seminole County, Florida, v. Seana Barnett,
Case No. 20-595
Motion for Extension of Time

Dear Mr. Harris,
I represent Respondent Seana Barnett in the above-captioned case. The petition for a writ
of certiorari was filed on October 30, 2020. Respondent’s opposition brief is currently due on
December 7, 2020. Pursuant to Rule 30.4 and this Court’s Guidance Concerning Clerk’s Office
Operations under the COVID-19 pandemic, I respectfully request that you extend the deadline to
file the opposition brief by 30-days. Petitioner’s counsel has no objection to this request.
The 30-day extension is needed due to the ongoing COVID-19 restrictions and associated
complications as well as my prior commitments during this time period which include preparing
for and conducting a one-week trial scheduled to begin on November 30, 2020. I anticipate being
able to file a response in opposition to the petition for a writ of certiorari by January 6, 2021.
Please advise if you require any additional information. Thank you for your time and
consideration.
Sincerely,
Kendra D. Presswood
Counsel of Record for Respondent

CERTIFICATE OF SERVICE

I, Kendra Presswood, counsel for Seana Barnett, hereby certify that on 17th
day of November, 2020, I caused one copy of the forgoing Motion For Extension
Of Time to be served by postage prepaid First Class Mail and served via electronic
mail to the following counsels:
D. Andrew DeBevoise, Esq.
Thomas W. Poulton, Esq.
DeBevoise & Poulton, P.A.
Lakeview Office Park, Suite 1010
1035 S. Semoran Blvd
Winter Park, Florida 32792
debevoise@deboisepoulton.com
poulton@deboisepoulton.com
Attorneys for the Petitioner
I further certify that all parties required to be served have been served.

Kendra D. Presswood
Shankman Leone, P.A.
707 N. Franklin Street, 5th Floor
Tampa, Florida 33602
(813) 223-1099
kpresswood@shankmanleone.com

